<html>
<title> - MADE BY MADURO: THE HUMANITARIAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                          MADE BY MADURO: THE
       HUMANITARIAN CRISIS IN VENEZUELA AND U.S. POLICY RESPONSES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
          THE WESTERN HEMISPHERE, CIVILIAN SECURITY, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

                            Serial No. 116-7

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                           or www.govinfo.gov
                           
                               __________     
                               
                     U.S GOVERNMENT PUBLISHING OFFICE
                     
35-365PDF		   WASHINGTON : 2019    



                           
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                    Jason Steinbaum, Staff Director

              Brendan Shields,  Republican Staff Director
                                 ------                                

  Subcommittee on the Western Hemisphere, Civilian Security, and Trade

                   ALBIO SIRES, New Jersey, Chairman

GREGORY W. MEEKS, New York           FRANCIS ROONEY, Florida, Ranking 
JOAQUIN CASTRO, Texas                    Member
ADRIANO ESPAILLAT, New York          CHRISTOPHER H. SMITH, New Jersey
DEAN PHILLIPS, Minnesota             TED S. YOHO, Florida
ANDY LEVIN, Michigan                 JOHN CURTIS, Utah
VICENTE GONZALEZ, Texas              KEN BUCK, Colorado
JUAN VARGAS, California              MIKE GUEST, Mississippi
                                                                                                                                                                                         
                       Sadaf Khan, Staff Director
                       
                       
                       
                       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Escobari, Marcela, Senior Fellow For Global Economy and 
  Development, Center for Universal Education, Brookings 
  Institution....................................................    21
Canton, Santiago, Former Executive Secretary, Inter-American 
  Commission on Human Rights.....................................    30
Rendon, Moises, Associate Director and Associate Fellow, Americas 
  Program, Center for Strategic and International Studies........    38

              STATEMENTS SUBMITTED FROM COMMITTEE MEMBERS

Hon. Albio Sires, chairman of the subcommittee...................     3
Representative Yoho for Ambassador Rooney........................     8
Representative Meeks.............................................    13

                                APPENDIX

Hearing Notice...................................................    59
Hearing Minutes..................................................    60
Hearing Attendance...............................................    61

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Amensty International letter submitted from Representative Levin.    62

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Question submitted to Ms. Marcela Escobari from Chairman Sires...    70
Question submitted to Mr. Santiago Canton from Representative 
  Levin..........................................................    73

 
                    MADE BY MADURO: THE HUMANITARIAN

             CRISIS IN VENEZUELA AND U.S. POLICY RESPONSES

                       Tuesday, February 26, 2019

                           House of Representatives
            Subcommittee on the Western Hemisphere,
                       Civilian Security, and Trade
                       Committee on Foreign Affairs
                                                     Washington, DC
    The committee met, pursuant to notice, at 2:08 p.m., in 
Room 2172 Rayburn House Office Building, Hon. Albio Sires 
(chairman of the subcommittee) presiding.
    Mr. Sires. This hearing will come to order.
    This hearing titled Made by Maduro: The Humanitarian Crisis 
in Venezuela and U.S. Policy Responses will focus on the 
political, economic, and human rights crisis in Venezuela, and 
ways for the international community to support the Venezuelan 
people.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous material for the record, 
subject to the length limitation in the rules. I will now make 
an opening statement and then turn it over to the ranking 
member for his opening statement.
    Good afternoon, everyone, and thank you to our witnesses 
for being here today for such a timely and important topic. 
This is our first subcommittee hearing of the 116th Congress, 
and I just want to say that I am looking forward to working 
with every member of this committee, including Ranking Member 
Rooney and Vice Chair Meeks, to bring much-needed attention to 
the Western Hemisphere.
    Today the Venezuelan people are suffering under a 
humanitarian crisis caused by authoritarian leader Nicolas 
Maduro. Since Maduro came to power in 2013, he has consistently 
repressed human rights. Under his command, security forces have 
arbitrarily detained and abused thousands of protesters, 
committed acts of torture and forced disappearances, and 
carried out hundreds of brutal killings, all with the single 
goal of eliminating any and all opposition.
    Just yesterday we saw another assault on democracy when 
Maduro detained American journalist Jorge Ramos for hours just 
because he did not like the questions he was being asked.
    Maduro has caused an economic collapse that has left nearly 
90 percent of Venezuelans in poverty, and forced over 3 million 
Venezuelans to leave their country. While average Venezuelans 
suffer from crippling inflation and shortages of food and 
medicine, Maduro and his cronies have enriched themselves 
through drug trafficking and money laundering.
    Maduro's illegitimate reelection last year cemented his 
position as a dictator. If there was any doubt, one just needs 
to examine this weekend's event when Maduro thugs burned tons 
of boxes of food and medicine. He would rather see his people 
starve and suffer than face the truth.
    It is clear from the massive demonstrations that have been 
taking place that Venezuelans have had enough. They are 
demanding an end to Maduro's reign of terror. At this pivotal 
moment the United States must stand by the Venezuelan people 
and on the side of democracy. I have joined many of my 
colleagues in recognizing the interim President Juan Guaido and 
calling for swift elections that are free, fair, and 
transparent.
    I believe the U.S. must work closely with allies in Latin 
America and Europe to help the Venezuelan people reclaim their 
fundamental rights and restore democracy. And we must take note 
of the regimes that are enabling Maduro.
    Cuba continues to provide intelligence support to Maduro to 
prevent military officials from defecting to the side of 
democracy. And Russia and Turkey are providing financial 
lifelines to keep Maduro afloat. The international community 
should be unified in calling for an immediate peaceful 
transition that swiftly leads to free and fair elections in 
which every political party is allowed to participate in fully 
competitive conditions, as guaranteed by international 
observers.
    To achieve that goal, we must apply maximum diplomatic and 
economic pressure on Maduro and do all we can to support the 
Venezuelan people. That is why I have joined my colleagues in 
working to hold Maduro accountable, while providing aid to 
address the humanitarian crisis. I have joined Congressman Soto 
in calling for the U.S. to grant temporary protected status to 
Venezuelans fleeing this crisis. And I cosponsored legislation 
proposed by Congresswoman Mucarsel-Powell which will authorize 
the President to direct $150 million in humanitarian assistance 
to the people of Venezuela.
    As we ramp up the pressure under Maduro, we need to be 
thinking also about the day after he is gone and how we can 
support the Venezuelan people to rebuild not just their 
democracy but their economy.
    I look forward to hearing from the experts with us today 
about what further steps the U.S. Government can take in close 
coordination with our allies to help the Venezuelan people 
reclaim their democracy.
    Thank you. And I now turn to the ranking member for his 
opening statement, Congressman Yoho.
    [The prepared statement of Mr. Sires follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    
    Mr. Yoho. Mr. Chairman, I appreciate it. And I am going to 
read Ambassador Rooney's opening statement.
    Thank you, Mr. Chairman. The current humanitarian and 
economic catas--thank you, catastrophe, that word, plaguing 
Venezuela is unprecedented in our hemisphere. The socialist 
policies, corruption, and economic mismanagement by the Maduro 
regime have destroyed what was once the most prosperous, the 
most prosperous country in Latin America and created one of the 
greatest exoduses of people, wealth, and talent in recent 
historical memories. Up to 3 million people have fled 
Venezuela.
    We said this on a news conference yesterday. You know, if 
it is doing so well, the Maduro regime is doing so well, why 
would 3 million people of your own country want to leave, 
destabilizing the region and most severely impacting our strong 
ally Colombia, and all of South America?
    Of course, an illegitimate dictator like Maduro refuses to 
accept responsibility for the current crisis. Blaming the 
United States will never explain hyperinflation exceeding 2 
million percent I read the other day--I do not know how that is 
possible--or an average Venezuelan losing over 20 pounds in 
body weight due to malnutrition. Instead, Maduro ignores the 
suffering of the Venezuelan people and continues to block 
humanitarian aid from entering his country.
    I comment the Trump administration for leading the effort 
to bring humanitarian assistance to the Venezuelan people in 
response to interim President Guido's request.
    I also applaud Colombian President Duque, who we met with 
last week, and Brazilian President Bolsonaro for their support 
and strong commitment to democracy and freedom for the 
Venezuelan people. The Maduro regime also refuses to listen to 
the request of the Venezuelan people, and has violently cracked 
down on peaceful dissent and committed serious human rights 
violation and abuses, including torture and death.
    Just this past weekend security forces are believed to have 
killed at least 25 people and injured more than 285 because 
they dared to protest. He has usurped the power of the 
democratically elected National Assembly and destroyed 
Venezuela's democratic institutions, while ignoring 
condemnation from the international community. The Maduro 
regime is not one elected officials chosen by--is not one of 
elected officials chosen by the Venezuelan people but criminals 
who run a mafia-like enterprise to enrich themselves at the 
expense of ordinary Venezuelans.
    Just last week we had a meeting where we found out that 
over $11 billion was pilfered off of the petroleum companies 
that have enriched the upper echelons of the Maduro regime at 
the expense of the Venezuelan people.
    The mafia State has not risen to power on its own. U.S. 
adversaries--and keep in mind it goes back to what our parents 
taught us as kids, you become who you hang around with--U.S. 
adversaries like Russia, Cuba, China, Iran, and Morales of 
Bolivia support the Maduro regime. That should tell you right 
there they are on the wrong side. Cuban officials are embedded 
in the Venezuelan military to the point where Maduro relies on 
the security forces of the Cuban regime for support because he 
cannot trust his own people.
    Russia and Iran see Venezuela as a disruptive thorn in the 
side of the United States. And China exploits a corrupt regime 
for discounted oil and access to resources. This is the real 
foreign interference we should be talking about. The 
illegitimate Maduro regime also has ties to drug trafficking 
and other illicit activities, and the Venezuelan people are the 
first victims of this corruption and cronyism. Over the last 
month the Venezuelan people have stood up to the Maduro regime 
and demanded the return of Venezuela to the prosperous, free 
nation it once was.
    President, interim President Juan Guaido has certified a 
united movement against the Maduro regime, and it has gained 
the recognition of over 50 countries. Maduro wants to blame the 
U.S. for this, but this is 50 international companies--
countries that have stood up to this. Again, I commend the 
Trump administration's strong support for Guaido and the 
Venezuelan people, and support the calls for free and fair 
elections in Venezuela as soon as conditions allow for them. 
And I strongly support the continuation of sanctions against 
the Maduro regime and the use of all economic tools at our 
disposal to hold them accountable for the crimes.
    There is much work to be done for Venezuela to regain its 
freedom, and freedom they will regain because the Venezuelan 
people grew up in this generation of liberties and freedoms and 
he is trying to snatch that away from them. They will not 
tolerate that. And that on itself is enough to change that 
regime.
    I am encouraged by the efforts of the administration and 
Special Representative Elliott Abrams to achieves these goals 
and coordination with our regional allies, and further hope my 
Democrat and Republican colleagues here in Congress will work 
together to present a united front against the Maduro regime 
that will encourage other nations to be on the right side of 
history.
    I look forward to the hearing. And, Mr. Chairman, I yield 
back. Thank you.
    [The prepared statement of Mr. Rooney follows:].

                  AMBASSADOR ROONEY OPENING STATEMENT
                  
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

    Mr. Sires. Thank you. Thank you, Congressman Yoho.
    We are going to open it up for 1-minute remarks by the 
members. Vice Chair Meeks, you have it.
    Mr. Meeks. Thank you, Mr. Chairman. And I am going to 
submit my full statement for the record. I will summarize it 
real quickly in this 1 minute.
    You know, clearly, to see what is happening to the people 
of Venezuela is heartbreaking to witness. When we talk about 
the scenario and human lives being lost in many instances and 
people going hungry, and no one wants to stand by and see such 
tragedies. But I do believe that it is important that the Lima 
Group and some of our allies in the region take the lead on 
this. It is just too much, I think, that it seems as though 
with our past history in the region, in Central and South 
America, and some of the bellicose talks that are going on 
about military threats, that hurts getting things done.
    I appreciate the fact that I see how and such with not a 
lot of bellicose that Peru, and Colombia, and Brazil, those 
border States have been dealing with. I look forward to 
questioning the witnesses and going and pursuing this a little 
bit further.
    But I submit my full statement for the record.
    [The prepared statement of Mr. Meeks follows:]
    
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Sires. Thank you, Congressman.
    Congressman Yoho, 1-minute remark.
    Mr. Yoho. One minute. You know, we look at this. And we met 
with the interim Ambassador that has been placed in that 
position that we recognize, and what I see is not, this is just 
not about Venezuela. This is about the other nations that we 
talked about, Cuba, China, Russia, Iran, Bolivia. These are all 
anti-western democracies. And the Rubicon is Venezuela. If the 
Maduro regime fails, so does Cuba because they have invested so 
much over the course of the years, and the same with Russia.
    This is something that we have over 70 million displaced 
refugees around the world because of conflict. We have the 
potential, having millions more that we have never seen in this 
country coming through our southern border. And this is 
something that we need to have a peaceful resolution as soon as 
possible.
    And I look forward to this hearing.
    Mr. Sires. Thank you. Congressman Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Although I have in the past been outspoken against any form 
of military intervention by our nation--we cannot continue to 
be the policeman of the world--I am very distressed to see what 
is occurring in Venezuela, particularly yesterday. We saw how 
Jorge Ramos and his Univision crew were detained for 2 hours 
when he showed Maduro a film of the children, Venezuelan 
children eating off a garbage truck. That has been protested by 
the entire world, including Mexico who has been somewhat 
ambivalent about what is happening in Venezuela, they protested 
this.
    And yesterday Jorge Ramos and his crew were deported from, 
forcefully moved from Venezuela. That is, Mr. Chairman, 
troubling because the eyes of the world must be on what is 
happening there. The whole world must be watching what is 
happening there. We cannot be blindfolded to that. And that is 
an egregious act against humanity.
    Mr. Sires. Thank you, Congressman.
    Congressman Vargas.
    Mr. Vargas. Thank you very much, Mr. Chair. And thank you 
for holding this hearing.
    I have to say that I am very distressed with what is 
happening in Venezuela. Venezuela has been a very proud 
country. In fact, has the largest oil reserves in the world. It 
has been a country that has historically been very wealthy in 
Latin America and on the move. And to see what has happened to 
it under Maduro is tragic. It has become a failed state.
    And also to reiterate what has happened to Jorge Ramos, a 
lot of us see Jorge Ramos as the Walter Cronkite of Spanish 
news. Someone that we always trust. He is very straightforward 
in what he says. And to see him, see what happened to him and 
his crew, how they were manhandled, and mishandled, and 
mistreated was really tragic because we need to see with the 
eyes, I think, of a very honest newsperson like himself what is 
going on there.
    So, again, I am very happy that we are having this hearing 
today. And I want to thank you, Mr. Chairman and the ranking 
member.
    Mr. Sires. Thank you, Congressman.
    Let me introduce first Ms. Marcela Escobari, Senior Fellow 
in the Center for Universal Education at Brookings where she is 
leading the Workforce of the Future Initiative. She spent the 
last year of President Obama's administration as an assistant 
administrator of the U.S. Agency for International 
Development's Bureau for Latin America and the Caribbean, 
focusing its initiatives on poverty, inequality, citizen 
security, and governance.
    Since 2007, Ms. Escobari served as the Executive Director 
of the Center for International Development at Harvard 
University. She has also worked as head of the Americas Region 
at the OTF Group where she advised governments on poverty 
alleviation through private enterprise.
    We welcome you again. Thank you.
    We will then hear from Mr. Santiago Canton who currently 
serves as Secretary of Human Rights for the Province of Buenos 
Aires. In 2017, he was appointed by the Organization of 
American States' Secretary General Luis Almagro as one of three 
experts to join an independent panel to examine the human 
rights situation in Venezuela. Mr. Canton was formerly director 
of RFK Partners for Human Rights at the Robert F. Kennedy 
Center for Justice and Human Rights.
    Before joining the RFK Center, Mr. Canton was the Executive 
Secretary of the Inter-American Commission on Human Rights for 
11 years, after serving as the first Special Rapporteur for 
Freedom of Expression in the Inter-American System. He also 
served as Director for Latin America and the Caribbean for the 
National Democratic Institute for International Affairs as a 
political assistant to former United States President Jimmy 
Carter.
    Welcome.
    Finally, we will hear from Moises Rendon, Associate 
Director and Associate Fellow of the Center for Strategic and 
International Studies, Americas Program. His research focuses 
on Latin American States in transition, trade and investment, 
governance and transparency, and U.S. foreign policy toward 
Latin America, with particular emphasis on Venezuela. He is a 
native Venezuelan.
    Thank you all for being here. Now we will go to testimony. 
Ms. Escobari, you have 5 minutes.

STATEMENT OF MARCELA ESCOBARI, SENIOR FELLOW FOR GLOBAL ECONOMY 
  AND DEVELOPMENT, CENTER FOR UNIVERSAL EDUCATION, BROOKINGS 
                          INSTITUTION

    Ms. Escobari. Thank you, Chairman Sires and members of the 
committee for calling this hearing and for the opportunity to 
testify today. I will be summarizing my views and ask that my 
full testimony be placed in the record.
    Venezuela presents a complex situation for a humanitarian 
response, where there is a legitimate, widely recognized, and 
democratically elected entity in the National Assembly, and now 
interim President Juan Guaido . However, he does not, as of 
now, have the command of the military forces or the government 
bureaucracy. So, while the official request of humanitarian aid 
from the National Assembly has started to be answered by the 
international community, it is a contested environment, where 
the delivery of aid is being explicitly blocked by Nicolas 
Maduro and the military.
    So, the situation calls for a two-tiered response.
    One, is what to do during this impasse.
    And, two, what to do in case of a much-needed democratic 
transition.
    Alleviating the human suffering and the refugee crisis 
looks different under these two scenarios. In the status quo we 
need to deliver aid in a politically neutral way to those that 
need it the most. This may involve engaging the United Nations, 
funding exisiting local and multinational NGO's on the ground, 
and using a variety of delivery channels, from cash transfers 
to air drops of supplies. As the need is and will be massive, 
both inside Venezuela and the neighboring countries affected by 
the refugee crisis.
    I would like to be clear that while important and 
necessary, given the extent of the humanitarian crisis, this 
approach is palliative. In the case of a democratic transition, 
Venezuela can engage in the profound reforms that are needed: 
Stabilizing the currency, rebooting the private provision of 
goods, massive cash transfers to alleviate acute shortages, and 
investing in public services from the replenishment of 
hospitals to citizen security. This transition will involve 
significant aid and, likely, the largest IMF package in its 
history.
    So, what is the situation? Venezuela has seen one of the 
most dramatic economic contractions in human history. Inflation 
has surpassed 1 million percent in the last year. If 
Venezuelans used to buy a carton of milk with $1 in January, in 
December it cost them $10,000. Obviously, salaries have not 
kept up.
    GDP has contracted over 50 percent in the last 5 years, the 
largest contraction in the world in 2017. It has over $150 
billion in debt, while oil output, which is 95 percent of 
exports, has gone down 64 percent in the last 20 years due to 
mismanagement and corruption.
    Poverty has gone from 48 percent to 91 percent in the last 
4 years. Venezuela is one of the most violent countries in the 
world. Parts of Venezuela have become lawless refuge for the 
FARC, the ELN, and non-state actors who engage in 
narcotrafficking, illegal mining, and contraband of gasoline.
    There are shortages of almost every basic medication. The 
Ministry of Health reported on a hundredfold increase in 
neonatal death. We have seen the rise of diseases previously 
eradicated, from malaria where we have seen over 500,000 cases, 
as well as Zika, polio, diphtheria, and measles. Shortages of 
vaccines means that this problem is likely to aggravate and 
spread, given the refugee crisis which has reached 3.4 million 
Venezuelans which have left their country, an average of 5,000 
Venezuelans who cross the border every day.
    Diseases do not respect borders and pose a regional 
security threat.
    To conclude, our unwavering support of the Venezuelan 
people is critical in this moment. There are two distinct 
strategies at play. One involves exerting maximum economic and 
political pressure on the regime that increase the chances of a 
bloodless transition.
    The second is a humanitarian response which is distinct 
from the political and diplomatic strategy, and should be 
neutral and target the most vulnerable. We should also be 
prepared to commit the resources that are commensurate with the 
needs, which will be multiples of the current commitment.
    In both of these fronts we need to maintain a multilateral 
approach. We are stronger and wiser when we work with others. 
And what makes this moment remarkable is the global support 
coalescing behind the new government and the humanitarian 
response. The Grupo de Lima, the OAS, most of the European 
Union make up the over 50 countries recognizing Guaido and 
pressing for a democratic transition. It is this coalition, 
ideally led by the Grupo de Lima, and supported by the U.S. 
that represents a hope for the Venezuelan people who have 
suffered too long under a brutal and corrupt regime.
    I wish to sincerely thank you for calling this hearing on 
the Venezuelan crisis and for inviting me to testify today.
    [The prepared statement of Ms. Escobari follows:]

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Sires. Thank you.
    Mr. Canton.

   STATEMENT OF SANTIAGO CANTON, FORMER EXECUTIVE SECRETARY, 
           INTER-AMERICAN COMMISSION ON HUMAN RIGHTS

    Mr. Canton. Mr. Chairman, Ranking Member Rooney, and 
members of the committee----
    Mr. Sires. Can you please turn your mike on. Thank you.
    Mr. Canton. Thank you for the opportunity to testify today.
    The Secretary General of the Organization of American 
States, Luis Almagro, has recently stated: ``The regime in 
Venezuela is responsible for what has become one of the worst 
humanitarian crisis the region has experienced. This crisis is 
man-made and a direct result of inhumane actions by leaders who 
do not care about the suffering of their people, allowing their 
citizens to die of hunger and preventable diseases.''
    In 2018, the U.N.'s Food and Agriculture Organization 
indicated that between 2015 and 2017, 11 percent of Venezuela's 
population, 3.7 million people, were undernourished, up from 
less than 5 percent between 2008 and 2013.
    The 2018 National Survey of Hospitals showed that the 
capacity of the national network of hospitals has been 
gradually dismantled over the last 5 years. The survey reports 
88 percent of shortages of medicine and 79 percent of shortages 
of surgical supplies.
    Indicators such as the increase of maternal mortality by 60 
percent, and infant mortality by 30 percent from 2014 to 2016, 
the lack of access to adequate and regular treatment for more 
than 300,000 patients with chronic diseases, or the outbreak of 
malaria and diphtheria all point to a dramatic deterioration of 
the healthcare system.
    The Office of the High Commissioner of Human Rights at the 
U.N. observed that women are particularly affected by the 
health crisis. For instance, the number of maternal deaths rose 
from 368 in 2012 to 756 in 2016.
    Last year, as mentioned by the chairman, I was appointed by 
the OAS to a panel of three independent international experts 
that, after evaluating the information on the humanitarian 
crisis, concluded that the use of the crisis as an instrument 
to pressure a segment of the population that is considered as 
dissident or that is identified as such, constituted multiple 
violations of fundamental rights, such as the right to life, 
right to humane treatment, the right to health, and the right 
to food, making it a crime of persecution for political 
reasons.
    The humanitarian crisis has created more demonstrations, 
and the government response to the demonstrations was a policy 
of systematic violations which between 2014 and 2018 left 
thousands of extrajudicial executions, 12,000 arbitrary 
detentions, 289 cases of torture, 192 cases of rape of persons 
under State control, and a number of enforced disappearances.
    The panel of experts found reasonable grounds to believe 
that these acts against the civilian population of Venezuela 
constituted crimes against humanity, in accordance with Article 
7 of the Rome Statute of the International Criminal Court, 
including the crimes of murder, imprisonment, torture, rape and 
other forms of sexual violence, persecution, and enforced 
disappearances. Finally, the case that the panel worked on was 
sent by five countries to the ICC.
    In 2001, the countries of this hemisphere approved the 
world's first democratic charter with the goal of defending 
democracy and human rights. Unfortunately, due to regional 
politics, the Inter-American Democratic Charter has clearly 
failed. Mr. Chairman, this is not about politics, this is not 
about the Latin American left or the Latin American right, 
populism or fascism, this crisis is about the personal greed, 
corruption and organized criminal activity of the mafia that 
under the banner of nationalism and sovereignty is killing, 
torturing, persecuting, and detaining its own people.
    In the year 2000, the Canadian Government established a 
commission to respond to a question of the U.N. Secretary 
General Kofi Annan on when the international community must 
intervene for humanitarian purposes. The Canadian Commission 
stated that sovereignty entails not only rights, but also the 
responsibility to protect its people from major violations of 
human rights. Basically, Mr. Chairman, the principle of non-
intervention yields to the international responsibility to 
protect. In this situation, it means to exercise the 
responsibility to protect the Venezuelan citizens facing grave 
human rights violations.
    And that is where we are now, Mr. Chairman. The 
international community, not any country individually, should 
work together, particularly with the countries from the Lima 
Group, but also with those who have not joined the Lima Group 
to return to the Venezuelans the democracy, the human rights, 
and the dignity that the group of organized criminals took away 
from them.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Canton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Sires. Thank you.
    Votes have just been called so, Mr. Rendon, can you do your 
5 minutes and then we will go into recess and come back so we 
can ask you some questions. And thank you for your patience.

 STATEMENT OF MOISES RENDON, ASSOCIATE DIRECTOR AND ASSOCIATE 
      FELLOW, AMERICAS PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Rendon. Thank you. Mr. Chairman and ranking member, 
distinguished committee members, thank you for the opportunity 
to share my thoughts on the crisis in Venezuela. My colleagues 
already talked about how we got here, including the most 
important humanitarian and economic indicators, so I will 
highlight some issues on how the U.S. and the international 
community can non-violently support Venezuelans to reclaim 
their democracy from this kleptocratic mafia state.
    It is important to emphasize that interim President Guaido 
did not proclaim himself as president, as has been reported. 
After January 10th of this year, Maduro lost any legitimacy 
left to continue in office. The Presidential elections held 
last May were not only unfree and unfair, but also illegally 
called by the illegitimate constituent assembly and organized 
by an unconstitutionally named national council, election 
council. This is why more than 50 countries, together with the 
National Assembly and the Supreme Court in exile did not 
recognize the results, and now recognize Guaido in lines of 
articles 233, 333, and 350 of the Venezuelan Constitution.
    The next step should be supporting the path that Guaido 
himself has announced to restore the country's democracy: Stop 
Maduro's usurpation of power, set up Guido's interim government 
such that free and fair elections can be held.
    The events this past Saturday, on February 23d, prove once 
again that the regime does not care that its own people faces 
starvation, and is not willing to leave power even if it means 
committing crimes against humanity. The rejection of 
humanitarian aid, including with the use of force, has been 
part of Maduro's policy and has been systematically enforced 
for many years in Venezuela.
    I want to briefly talk about the role of Cuba, China, and 
Russia. Venezuela has not been a truly sovereign nation for 
years. The presence of Cuban State actors in different sectors 
in Venezuela, including in the intelligence, military, and 
property registration offices, violates the Venezuelan 
Constitution and international law.
    China has propped up Maduro, has propped up the Maduro 
regime, lending nearly $70 billion, and possessing large oil 
fields in the Orinoco Belt where most of the Venezuelan oil is.
    Russia's influence in Venezuela, on the other hand, is 
driven both by economic and foreign policy objectives.
    I can comment more on this and other issues later but I 
want to turn now to where we go from here.
    I think a military intervention would be catastrophic, Mr. 
Chairman. Let me be clear, the threat of military involvement 
is a worthwhile strategy when it exists only as a threat or 
political language. However, actual boots on the ground or 
military activity will send the country deeper into chaos. The 
FARC members, ELN, gangs, and other paramilitary groups operate 
in this lawless environment. All of these groups are in peace 
right now. But as soon as one military action comes to 
Venezuela they will panic and it will cause even greater 
security concerns.
    What's more, the international community does not support 
military intervention as of now. We have not yet exhausted all 
peaceful policy options. Saturday was the first attempt that 
humanitarians had attempted to enter into the country. This 
happened because Juan Guaido has been recognized as the interim 
president of Venezuela, and together with the National Assembly 
urgently requested aid.
    Now that there is a consensus today within the 
international community that there is no time to waste in 
Venezuela, the path to limit the suffering of the Venezuelan 
people and help Venezuelans restore their democracy could be 
accelerated if the following steps are taken in the short term:
    One, provide much-needed humanitarian assistance within 
Venezuela. Again, Saturday was the first time this was 
attempted. And the planning and execution needs to be improved 
moving forward.
    Second, help Guido's government get off the ground by 
recovering the republic's assets from Maduro's control and 
transferring them to the Guaido and the National Assembly 
control.
    Third, recognize the new Ambassadors appointed by Guido's 
interim government and revoking diplomatic visas to those 
members of the regime and their families, including visas, the 
older visas, because revoking the older visas is also very 
important.
    Fourth, back the National Assembly's amnesty law for 
current and former military officials who decide to help 
restore the country's democracy and let the humanitarian aid 
in.
    Fifth, increase pressure on Maduro and his inner circle 
with legal sanctions, especially by countries who have not 
imposed sanctions yet.
    And, sixth, prohibit any further international agreements 
or oil payments to the Maduro regime and transfer those 
payments to Maduro's government and the National Assembly.
    And to finalize, this is, there is no silver bullet to 
resolve the Venezuelan crisis, Mr. Chairman. However, from the 
humanitarian and international law perspective the provision of 
humanitarian aid needs to be the top priority. The more the 
U.S. works together with the OAS and the Lima Group which, by 
the way, Venezuela formally joined the Lima Group just 
yesterday, we will have a better chance to find a peaceful 
solution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rendon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Sires. Thank you. We will recess now. We have floor 
votes. We will be right back.
    Thank you.
    [Recess.]
    Mr. Sires. We are going to start because I know, Mr. 
Canton, you have to leave. And we will start with the 
questioning. And I will start.
    You know, I get asked this question all the time. And the 
question basically is this:
    Are there any other methods for us delivering humanitarian 
aid that have been used in other places that we could try in 
Venezuela? Ms. Escobari, is there? I mean, obviously this past 
weekend did not go well. And I do not know, quite frankly, how 
to answer that.
    Ms. Escobari. No, it is a great question. And I think what 
we saw this weekend is that Venezuelans are desperate to find 
ways out of this repressive regime. And they also need to bring 
food in. And these two goals were conflated this weekend, and 
most of the aid did not go through.
    But I think there is a lot more that we can try. It is 
difficult in a contested environment. But it involves working 
with international NGO's like the Red Cross, working with local 
NGO's. There are hundreds of local NGO's. And thinking 
creatively about ways to bring in goods, sometimes we need 
goods but also cash, because around 20 percent of the goods are 
still provided by the private sector. It is just that most 
Venezuelans cannot afford them.
    And I do think there is an opportunity for the U.N. to step 
up their game and help----
    Mr. Sires. They have been pretty quiet about this.
    Ms. Escobari. Yes. I think the U.N. has played a brokering 
role in many of these politically contested environments, from 
Yemen to Sudan. And my colleague Jeremy Konyndyk who used to 
work at USAID, has suggested the U.N. needs to challenge 
Maduro's denial of the crisis. And Maduro's refusal of the aid 
has left the U.N. with no funding appeal for Venezuela, no 
humanitarian coordinator appointed within the U.N. system.
    OCHA, which coordinates aid, does not even include 
Venezuela as a contry of focus. And so I think that that is an 
opportunity to find a political mediator in this crisis.
    Mr. Canton. Thank you, Mr. Chairman.
    Unfortunately I would say that, many of the questions you 
have are the same questions that we all have. And we all also 
do not have an answer. There are no clear answers to many of 
the problems we are facing in Venezuela.
    One thing that at least I believe is very important, 
particularly for the U.S. Government, is to follow the Lima 
Group. There is a dialog going on there and if there is any 
possibility of finding a solution, very likely may come from 
the Lima Group.
    And in addition to the Lima Group I would say let's not 
forget about Mexico, let's not forget about Uruguay. Although 
those two countries have not recognized Guaido, that does not 
mean that they do not want to collaborate. And you always need, 
particularly in situations like this one that this, you know, 
is very close, you need some interlocutors that can talk, that 
can talk to the government. And those are going to be more 
likely Mexico and Uruguay than in the Lima Group.
    So, the combination of the work of other Latin American 
countries which Latin America has a history, sometimes good, 
sometimes bad, but it does have a history of trying to find 
solutions to this big crisis. The Contadora group back in the 
'80's, and there are some experiences like that. They should 
take the lead. And it is important that the U.S. understands 
that and takes the lead of the decision of the Lima Group.
    Mr. Rendon. Thank you, Mr. Chairman for the question. I 
have done some research on finding new methods to try to 
provide humanitarian aid in Venezuela. Very interestingly, the 
use of new technology, specifically the use of cryptocurrency, 
is already playing a role in Venezuela. We brought groups on 
the ground in Venezuela that are receiving donations through 
cryptocurrency, and they are using those donations to buy food 
and medicine and distribute it within Venezuela.
    This is increasingly happening because Venezuela has 
hyperinflation and the donations to get into the country is 
really limited, really repressive; right? So that is where the 
use of cryptocurrency is shedding a light of how we can use 
that as a method to get aid in a way that we probably have not 
seen before. So, I think looking into those.
    And the benefits are countless. I mean, it is transparent, 
censorship-resistant, it is borderless, and it is empowering 
the people to use their own resources, right, because it is 
direct. So I would look at that as a way to, because again we 
need to think out of the box here, and I think that is one of 
those tools that can maybe help.
    Mr. Sires. Thank you. My time is up.
    Congressman Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Rendon, would you agree that the Maduro regime is a 
corrupt regime? I think you mentioned that in your report or 
your transcript on page 2. Would you agree with that?
    Mr. Rendon. I am sorry, what is that? Would you repeat 
that, please?
    Mr. Guest. Would you agree that the current regime is a 
corrupt regime?
    Mr. Rendon. Yes.
    Mr. Guest. Being involved, I believe you say, in illicit 
activities, including drug trafficking, massive corruption, and 
money laundering?
    Mr. Rendon. Yes. Correct.
    Mr. Guest. And would each of you also agree with that as 
well, with that, with that assessment of the current regime? 
And to each of you, would you agree that the current regime is 
an illegitimate regime based upon the sham elections that were 
held earlier last year?
    Mr. Rendon. Correct.
    Mr. Guest. And would you also agree that the current regime 
has created both a political crisis and a humanitarian crisis 
in Venezuela?
    Mr. Rendon. Correct.
    Mr. Guest. All right. So, with that, what can be done, 
short of military intervention, what can be done to remove 
Maduro from currently presiding over the people of Venezuela? I 
believe, Mr. Rendon, you talked in one of your statements that 
we must increase pressure on his inner circle. What methods 
could we use that we are currently not to increase pressure on 
his inner circle to have him step down?
    Mr. Rendon. Yes, thank you for that question.
    So, there are many tools that we have not yet accomplished 
yet. One of those, for example, is to work with other countries 
like Cuba, China, Iran, Russia to make sure that they do not 
support Maduro.
    Mr. Guest. All right, let me ask you, I hate to interrupt 
you,----
    Mr. Rendon. Yes.
    Mr. Guest [continuing]. But would you agree that that is 
highly unlikely that we are going to convince China, and 
Russia, and Cuba----
    Mr. Rendon. Yes.
    Mr. Guest [continuing]. Not to support this regime?
    Mr. Rendon. Yes. It is going to be a difficult task.
    Mr. Guest. OK. All right, go ahead. I am sorry, I did not 
mean to interrupt you.
    Mr. Rendon. No, no. No.
    Mr. Guest. But just wanted to make sure.
    Mr. Rendon. No, that is a fair question.
    And, second, I think now that we have a new recognized 
government led by Juan Guaido we should be supporting him, 
trying to get his government get off the ground as quick as 
possible. How? Making sure to freeze those bank accounts, those 
assets that Maduro still controls today, not only within the 
U.S. through restriction but also on those countries who 
recognize Guaido as the president.
    And also transfer those bank accounts to Guaido and the 
National Assembly. That is a very key point but I do not think 
we are there yet. And I think that is an important task to 
empower the legitimate government and try and find a 
resolution. Right?
    So I will add that, Congressman Guest.
    Mr. Canton. Thank you for, thank you for your question.
    I would start by saying that your question assumes that 
military intervention is the solution.
    Mr. Guest. No, I said in light of that. What can we do----
    Mr. Canton. OK. Right, OK.
    Mr. Guest [continuing]. Because I think no one wants the 
United States military to go into Venezuela and forcibly remove 
Mr. Maduro.
    Mr. Canton. Right. Right.
    Mr. Guest. And so what can we do short of that----
    Mr. Canton. Right. All right, OK.
    Mr. Guest [continuing]. To accomplish that purpose? Because 
I believe once he is removed and we are going to see 
humanitarian aid begin to flow into Venezuela, I believe he is 
the roadblock controlling the military----
    Mr. Canton. Correct.
    Mr. Guest [continuing]. That is creating this crisis. And 
we all want to see him removed but no one wants to use any 
military force.
    Mr. Canton. Correct.
    Mr. Guest. So that is the question, what are we not 
currently doing that would promote regime change in Venezuela?
    Mr. Canton. Right. I do not think that anybody has the 
magic solution and the, you know, the great answer to that 
question. But there is one thing that is different now than 
before. For the last 20 years, and I have been following 
Venezuela as secretary, Secretary of the Inter-American 
Commission on Human Rights for, you know, 15 years, this 
situation has been going on and on and on for easily 15 years 
but the international community, particularly Latin American 
community did not pay attention to it.
    There are several reports of the Inter-American Commission 
on Human Rights, and most NGO's on human rights denouncing 
grave violation of human rights in Venezuela at least since 
2005. And the Latin American countries did not pay attention to 
it for whatever reason.
    Right now for the first time that is happening. So there is 
a big difference between now, the Lima Group, the political 
negotiations that are going on, to everything else that was 
tried before. So, there is a need to give time, to give chance 
to the political negotiations, to give chance to diplomacy, to 
give chance to the U.N. This is the time to do it. What is 
going on right now it just started but all the failures are 
from the last 20 years. So we need to give a chance to this 
situation right now.
    Mr. Guest. And in addition to what we are currently doing 
is there any additional pressure that we can put on that regime 
that, again, you talk about freezing assets and about putting 
pressure on his inner circle, and what I was wanting from each 
of you, what can we do as a government to make sure that we are 
putting as much political pressure on Maduro to resign as 
possible?
    Mr. Canton. I, you know, this might sound--I am not a U.S. 
citizen, I am from Argentina and it might sound a little bit I 
am getting involved into something that is not my affair. But, 
you know, I live in this country for 30 years. And the U.S. 
should be, that is why I used that word before, following what 
the Lima Group decides rather than pushing the Lima Group to do 
something. That negotiation has taken place. And when the U.S., 
you know, makes the decision to keep, you know, it is the U.S. 
Government particularly, but it is important to let the Latin 
American countries that now for the first time in 20 years are 
doing something, it is important to support them and to 
followup on their decisions.
    Mr. Sires. Congressman Vargas.
    Mr. Vargas. Thank you very much, Mr. Chairman. And thank 
you again to the witnesses for being here today.
    When I always thought of Venezuela I always thought of it 
as a very stable democracy, just like Mexico, Colombia, a 
number of the large Latin American countries. And it really is 
tragic and almost unbelievable what has happened to Venezuela. 
Now we have, Ms. Escobari, as you call it, a contested 
environment. I never would have expected that.
    Now, in the situation that we find ourselves--they find 
themselves in, it is a humanitarian crisis that we seldom see 
in our hemisphere. And, again, as being someone who is not in 
favor in any way of military intervention, I am not in favor of 
that, but at the same time we have to move this thing along 
because the suffering of the people is so dramatic, and not 
getting better.
    I mean, how can we help? I mean, we are attempting to 
humanitarian--I have listened to all your testimoneys today--
and humanitarian help first and a whole bunch of other things, 
but is there anything else that we can do, and again not using 
military force which I am not in favor of it, is there anything 
else we can do without hurting the people? In other words, 
moving toward a transition but without doing more damage to 
these poor people who have been hurt so badly.
    Ms. Escobari. To add to this question and to what my fellow 
panelists have said, I think the strategy is twofold. And it 
involves strengthening both of those strategies. It is widely 
accepted that the government uses oil to distribute rents to 
the military officers and maintain itself in power. So the 
sanctions are meant to limit his ability to do so can be 
strengthened.
    We can work with the international community so that all of 
Latin America and the European Union enforce these sanctions 
fully. And use diplomatic avenues so that Maduro, if we are 
going to go for this short-term dramatic strategy, that Maduro 
does not have options to sell its oil, and that we use our 
diplomatic leverage with India, and Turkey, and others.
    And while it is true that Russia and China may not be our 
allies, at the end they want to get paid. And they are deciding 
right now whether Maduro is the right person to bet on. And 
those, I think are calculations that are changing by the 
minute.
    And there are other stronger actions and escalations that 
we can engage in, short of military intervention.
    Mr. Vargas. But also short of hurting people. I mean, one 
of the things that I have great concern about is oftentimes 
when we have sanctions placed on countries, you know, we try to 
target them to hit the culprits. But oftentimes it ends up 
hurting the people in general. We do not want to starve the 
people of Venezuela. I mean, that does concern me.
    Ms. Escobari. Yes.
    Mr. Vargas. Because 95 percent of the exports is oil.
    Ms. Escobari. Yes.
    Mr. Vargas. I mean, if we cutoff all oil and we cannot get 
humanitarian aid into the country, I mean how are the people 
going to eat? I mean, how are they going to survive?
    Ms. Escobari. Yes, exactly. And this is why when we think 
of it as humanitarian aid, the effort should be massive and 
using all possible ways, including negotiating corridors, 
safety corridors and finding all ways because exactly of the 
calculus that you are, that you are describing.
    Mr. Vargas. That is very hard in a contested environment. I 
mean, you are the one that mentioned it actually in your 
testimony, you said this is a contested environment. I mean, it 
is hard to do that. I mean, we saw what happened with a little 
bit of aid and literally Maduro's thugs did not allow most of 
the aid in.
    And how do you negotiate it when they have armed thugs 
preventing the aid from coming in? Anyone else want to try 
that?
    Mr. Canton. I have a very, very short answer which I 
mentioned it before. Give it a try. It just happened now. You 
know, when we tried for the last 20 years, nothing happened. 
But this is not the first time it is happening. And the Latin 
American countries are serious about it. So let's give it a 
try.
    Mr. Vargas. OK. The last thing, last question I did want to 
ask is this, one of the things that I fear. What if Maduro 
rolls the tanks? I mean, what if at the end of the day he 
decides that he is just going to go to try to put down these 
massive demonstrations with massive assault on the people, then 
what do we do? Because this is not unheard of. I mean, this has 
happened, of course. Dictators have done this throughout 
history.
    Do not be afraid of the question. Somebody answer. Mr. 
Rendon, go ahead.
    Mr. Rendon. So far it has not been the experience in 
Venezuela. And, you know, I have, again, I have followed it 
since 2000. I met Chavez. I met Maduro. I spoke with them for 
the last, you know, many occasions. That has not happened. 
Really very great things have happened, but not that.
    Mr. Vargas. Well, let's pray that it does not happen. My 
time is over. Let's pray that it does not happen.
    Thank you.
    Mr. Sires. Thank you.
    Congressman Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Mr. Canton, you have particularly some of what my concerns 
are. There is no question in my mind, and I, like you, have 
been down to Venezuela and I have been going down there for the 
last 20 years. Knew Chavez when he was there, and Maduro was 
part of the National Assembly.
    My concern, though, is with the United States being in 
front of everything, as opposed to Lima Group and other allies, 
and particularly those, the Lima Group, who are in the region, 
who surround the borders, what is happening is, as opposed to 
some of these other countries, or other NGO's, or other ones 
who are trying to get that humanitarian aid in, it seems as 
thought it is a political fight to a degree where it is the 
United States that has taken the front of this as opposed to 
the back and supporting other groups from behind in that 
regard, as opposed to making it look like, you know, it is--and 
the threat of military aid, military intervention.
    And so the boasterous talk is going, taking place. But that 
helps hinder helping the Venezuelan people who needs help. The 
focus should be on the help. And one thing that I have not 
heard, what we need to make sure is done in this conversation, 
is bringing forth elections, democratic, free, and fair 
elections so it does not just look like you are trying to put 
somebody in an topple a government. We are saying, and I agree, 
that the prior election of Nicolas Maduro was not free, was not 
fair, was not, and so therefore he was not legitimately 
elected.
    But what we should be advocating for is for the legitimate 
elections, not just putting someone in. And that is what the 
Venezuelan people want because they do believe in democracy. I 
have seen it.
    When I was over in Europe just, you know, last week, our 
European allies they believe it is an illegitimate government. 
But they do not want, they want others, they want to make sure 
that there are others that are involved in this. And when I 
look at what is taking place at the border it is just the 
United States. China forced their way in. And when I look at, 
you know, I am told from some, they, you know, have questions 
with Elliott Abrams, just the imagery because of what our past 
history is. That is a problem. And then some of the rhetoric 
that is taking place here with the Colombians, and the 
Brazilians, and others, you know, millions of people are 
running across. And these governments are welcoming then. And 
so they did not ask whether this is part of it or not, but they 
do ask, well, how does the United States gets involved when you 
have people who are suffering and hurting.
    And Central America, and our country is saying not accept 
them, put up a wall to stop them from coming here. Send them 
back. Thank God Colombia and Brazil is not doing that. Thank 
God they are not doing that because then what would happen to 
those people?
    And that gives us a problem from leading in front because 
of the problems that we have with other areas on the 
hemisphere.
    So, would it not make sense, or am I just, you know, crazy 
here, that we allow Lima, the Lima Group, we allow OAS, we 
allow and get more involved so it is another party, and we do 
all we can to support those groups? So it is not us trying to 
be the big guys coming in, the whatever Maduro calls us now. 
Does that make any sense to you?
    Mr. Canton. Yes, of course. I agree with you. And I do have 
in my presentation, you know, calling for elections. You know, 
the 5-minutes time did not allow me to reach the end. But I do, 
I do think that that should be the way out. Although I am not 
very optimistic about it, I have to recognize that. But it 
should be a natural way out and peaceful way.
    The U.S. has a difficult role, no question about that. And 
it has a history of relationship with Latin America which was 
up and down along the decades, but it is an very important role 
the U.S. can play.
    But at this stage I agree with you and I insist for the 
first time in many, many years when the issue of Venezuela 
comes up, for the first time the Latin American countries, most 
of them are working together. It is critical for the U.S. to 
support that process and let the Latin American countries, the 
OAS, the United Nations, I would include Mexico as well, and I 
would include Uruguay as well, work with them to try to find a 
solution.
    Mr. Meeks. Ms. Escobari, we still have time here.
    Ms. Escobari. I agree. And I mentioned in my testimony that 
we should let the Grupo de Lima lead but--we need to support 
them. And our capabilities are massive, both in our ability to 
help in aid and otherwise. But we should let the Grupo de Lima 
lead.
    And in support, President Guaido in terms of directing, you 
know, the carrots and sticks.
    Mr. Meeks. Thank you.
    Mr. Sires. Congressman Phillips.
    Mr. Phillips. Thank you, Mr. Chairman. Thank you to our 
witnesses, and also thank you to my colleague Mr. Meeks who 
referenced elections.
    And I want to turn our attention a little bit prospectively 
to a post-transition, hopefully peaceful transition. And I 
would like to hear from each of you relative to what specific 
conditions you believe the international community and this 
U.S. Congress should ensure are satisfied to ensure that 
Venezuela has free, and open, and fair elections after a 
transition.
    And also, what timeframe you think would be most 
appropriate thereafter.
    Mr. Canton. I am sorry I answer first, but I have to leave 
because I----
    Mr. Phillips. Please.
    Mr. Canton [continuing]. Need to take a flight.
    I would say credible international observers which the last 
elections in Venezuela and these last two elections, you 
probably know better than I do, there was no credible 
international election observation. And the OAS was not allowed 
to go. And most important NGO's doing election observations 
were not allowed to go. The European Union was not allowed to 
go.
    So, you need election observations.
    And the timeframe, the timeframe is now. But, you know, you 
cannot call for a snap election because that is not helpful. 
But a reasonable time for all the political parties to be able 
to participate freely, so you have to have months.
    Mr. Phillips. Months.
    Mr. Rendon. Yes, just to briefly add on that. You also need 
to work the conditions on the ground. Maduro has been proved to 
be intimidating the Venezuelan people using food as a weapon. 
And so when you are calling elections you need international 
observers but you also need to work the conditions on the 
ground by providing humanitarian aid and disempowering the 
regime by using this tool, this food program called CLAP, which 
is the main political tool that they have to use. But it is 
linked to the national I.D. and to the way you vote and the way 
you are politically affiliated.
    So, in a way it is like the Chinese credit system but with 
lower technology. So, if you want to set up free and fair 
elections in the future, that CLAP program needs to be one of 
the first things that need to be out. And among the many 
others, right, because now we--I mean, I agree, elections are 
the first step but you need to announce a new electoral system. 
The current electoral system right now is highly corrupt, so 
you need to have a new council and as well.
    Mr. Phillips. And any thoughts on who is in a position to 
initiate such a new system?
    Mr. Rendon. The only institution based on the Venezuelan 
Constitution is the National Assembly. They are the only ones 
who can announce elections at this point and also a new 
electoral system----
    Mr. Phillips. The infrastructure.
    Mr. Rendon [continuing]. That can promote free and fair 
elections.
    Mr. Phillips. OK, thank you.
    Ms. Escobari.
    Ms. Escobari. And just to add to that, which I agree with, 
I think you need a minimum of stabilization and citizen 
security to hold elections. And the National Assembly has 
actually approved guidelines on the transition and thinks that 
this might take around a year.
    Mr. Phillips. OK, a full year.
    All right, thank you. I yield the rest of my time.
    Mr. Sires. Congressman Levin.
    Mr. Levin. Thank you, Mr. Chairman.
    I want to explore a little the question of amnesty and 
human rights violations. And now I will direct this to Ms. 
Escobari. But I am curious to hear both of your thoughts.
    Reports indicate that under Maduro Venezuelan military 
officials have committed grave human rights abuses. The U.N. 
Office of the High Commissioner for Human Rights has reported 
the use of ``excessive force to deter demonstrations, crush 
dissent, and instill fear.'' It is my understanding that the 
Venezuelan National Assembly has enacted legislation to provide 
amnesty to public officials, including security forces, that 
abandon the Maduro regime and support the transition, you know, 
the transitional government.
    President Trump relayed a similar message himself last week 
during a speech at Florida International University in Miami. 
He delivered what he called a ``message for every official who 
is helping keep Maduro in place,'' and he said the following:
    ``You can choose to accept President Guido's generous offer 
of amnesty, to live your life in peace with your families and 
your countrymen. President Guaido does not seek retribution 
against you, and neither do we.''
    There is a long history of impunity for human rights 
abusers in the Western Hemisphere and other parts of the world. 
And, you know, on the other hand there have been some examples 
of truth commissions and efforts to hold people accountable 
which, in my view, are necessary for the development of healthy 
democracies.
    So, can you provide a little more detail on the kinds of 
human rights abuses that may have been perpetrated by 
Venezuelan military officials to start with?
    Ms. Escobari. Yes. I wish our colleague was here because he 
had a long list and the list includes torture, and 
imprisonment, and the killings that we witnessed this weekend. 
And I think, the amnesty law and the proposal by Guaido is 
powerful because it is part of the strategy of getting the 
military to defect. However, there will be, there will be a 
determination on those who have committed crimes against 
humanity, and that amnesty law cannot protect those.
    Mr. Levin. It cannot protect those under Venezuelan law or 
under international law you are saying?
    Ms. Escobari. I think neither.
    Mr. Levin. That is something that is in Venezuelan law, in 
the constitution, in the statute? Where is that? Or is that 
just an aspirational kind of statement?
    Mr. Rendon. Yes.
    Ms. Escobari. Sorry, go on.
    Mr. Rendon. According to the Venezuelan Constitution there 
cannot be any pardon on human rights violations. And so when I 
think of this amnesty law I think not of the top generals who 
have--who are the responsibles of committing human rights 
violations, I am thinking more of the bottom, the bottom 
soldiers who are just following orders from their generals. 
Right? And that is where the strategy can be found.
    Now, there is a tricky part here because when it comes to 
crimes against humanitarian, following orders is not an excuse.
    Mr. Levin. Exactly. I mean, I you, if I, if you are my 
commander and you tell me to torture Mr. Phillips, I may not 
torture Mr. Phillips and, if I do so, I am committing a grave 
human rights violation.
    Mr. Rendon. That is----
    Mr. Levin. So I do not understand the point about generals 
and soldiers on the ground.
    Mr. Rendon. That is correct. There are soldiers who have 
either not committed crimes against humanity who can be saved 
by this amnesty law. And that is where I think this law can 
provide a bridge to some of those to support Guaido and the 
democracy of Venezuela. And I think it is a tool together with 
the whole pressure that we are trying to use toe facilitate the 
democracy in Venezuela within, led by Venezuelans. Right? So, I 
think it is a powerful tool and I think we need to support that 
as much as possible.
    Mr. Levin. Well, thank you. I will just say that given the 
almost complete disregard for human rights of the current 
occupant of the White House in everywhere from South America to 
North Korea, this body has a responsibility to step up and 
proclaim American--America's long dedication to, imperfect, but 
our dedication to human rights. And as urgent as the situation 
is in Venezuela, we need to proceed in a way that holds the 
respect of human rights sacrosanct.
    Thank you. And I yield back my time.
    Mr. Sires. Thank you, Congressman.
    We are going to have another round of questioning. I and 
maybe they have another question.
    It was recently stated that India now has stepped up and 
bought the oil from Venezuela. And they did it pretty quickly. 
What can we do to stop that? Because that is basically the 
funding for Maduro.
    Mr. Rendon. Yes, I think that is a critical point, Mr. 
Chairman. And I think we need to engage the Indians. That cash 
is being used by Maduro to keep up the repressive regime; 
right?
    And but that has a specific purpose to that trade, and that 
is fueling the domestic gas in Venezuela. And Venezuela is 
running out of gas. And people would not--are not going to be 
able to fill their own cars with gas if the Indians are not 
sending that cash to Maduro.
    I think the more we empower, again, Guido's government, 
providing those oil payments to Guido's government and the 
National Assembly, providing those trade agreements to Guido's 
government and National Assembly is not only the only 
constitutional, legitimate way forward, but it is the right 
thing to do. And I think we need to as much as possible 
transfer those to Guaido.
    So, when the U.S. talks to India, that is the direction 
that we need to be engaging, recognizing Guaido and engaging 
the Guido's government.
    Mr. Sires. Can the Lima Group talk to India?
    Mr. Rendon. That is a good question. I think they are under 
the authority to do it. And they should be, they should be 
pursuing that route.
    Ms. Escobari. They probably can, but we probably hold more 
leverage. And I think for India it is completely an economic 
decision.
    If we think about the numbers, last year Venezuela sold 
about $20 billion but most of the cash came from the U.S. Now 
that the U.S. is not going to be providing that, they are going 
to be selling it at a deep discount.
    But just think about the magnitude of the need. I think 
there still would be around $5 billion that would, that would 
not reach the Maduro government. And I think that number is 
also important when we think about our humanitarian package.
    Mr. Sires. Thank you.
    Congressman Levin, do you have a second question?
    Mr. Levin. Yes. Thank you, Mr. Chairman.
    I would just like to followup actually on the PDVSA 
sanctions situation. And I would like to get your all's take 
on, you know, the possibility of unintended consequences.
    As you know, the Trump administration put sanctions on 
PDVSA, presumably in hopes that cutting off Maduro's money 
supply would force him to exit. But as I said during our last 
hearing on this subject, I am worried about what is going to 
happen to the Venezuelan people while this strategy plays out 
or does not.
    The New York Times ran a story earlier this month on this 
very question, and I think the headline said it all: ``U.S. 
Sanctions Are Aimed at Venezuela's Oil. Its Citizens May Suffer 
First.''
    So, my question is, could these particular sanctions worsen 
the humanitarian crisis that has already gotten so bad in 
Venezuela? And either, I am interested in either of your 
answers.
    Ms. Escobari. Yes, I think the strategy is one to be able 
to starve Maduro of his ability to continue to maintain himself 
in power. And that cannot happen without an equally robust 
strategy on the humanitarian side. And these are the orders of 
magnitude that we should be talking about.
    Mr. Rendon. Yes, in a way it is going to limit Maduro to 
keep importing food and other products. It is the only way the 
Venezuelan people are getting fed, by imports. So, Maduro is no 
longer going to be able to import as much as people are 
needing.
    Mr. Levin. So we are sort of playing a game of chicken with 
him where we, at the risk of the people starving?
    Mr. Rendon. I think the key part here, again to the point 
of Guido's government, is to make sure that he has the power to 
keep, and the National Assembly to import now. And if we are 
now recognizing Guaido as the only legitimate president, we 
need to give him that power. And I think providing humanitarian 
aid is the first step. We should be trying to keep pushing 
humanitarian aid, not only to the Colombian border but to 
every, every single border in the country.
    And we only tried once. Let's keep trying, let's keep 
trying because, again, Venezuelans are starving. So I think 
that is the----
    Mr. Levin. Do you think it is fair to say that we 
politicized humanitarian aid in this situation, that the U.S. 
is saying, well, this is the government over here and they, and 
given the long history of the Yanqui intervention in the 
hemisphere in many countries, overthrowing democratic 
governments, that it is problematic for us----
    Mr. Rendon. Yes.
    Mr. Levin [continuing]. To be playing the role, even the, 
you know, a good strategy in, you know, in other circumstances?
    Mr. Rendon. I will argue because of the National Assembly 
and President Guaido himself requested aid, and also this was a 
multilateral approach. No, it is not about the U.S. sending 
aid, it is about Canada, Colombia, Argentina, Chile, Peru, 
Ecuador, and even Uruguay sending medical supplies, the 
European Union, following the National Assembly and Guido's 
request for aid.
    And on top of that the one politicizing, using food as a 
weapon here is Maduro. He has been doing this for years. So 
when I see Saturday's event I do not think aid's being 
politicized, I think it is following, again, the only 
constitutional route that we have today to support the 
Venezuelan people. And I think we should be continuing that 
path.
    Yes, there is room for improvement. I think the execution 
of Saturday's humanitarian aid can be improved in many ways. We 
only saw that happening in three points, crossing points in 
that border. That is a border that has 250 unofficial crossing 
points. So, if we want to----
    Mr. Levin. Unofficial or?
    Mr. Rendon. Unofficial.
    Mr. Levin. OK.
    Mr. Rendon. Called trochas, which are, you know, your 
regular path where people--which, by the way, 50 percent of the 
people crossing the border are using those unofficial paths. 
So, if we want to really send humanitarian aid we can, we need 
to find those ways and we need to keep continuing that pursuit 
following the National Assembly request and President Guido's 
request.
    Mr. Levin. Thank you. I really, I really appreciate that.
    I mean, Mr. Chairman, I do not say any of this to support, 
you know, the Maduro regime one iota. I just worry about 
finding the most effective way forward given, you know, given 
our country's history, and whether us playing such a prominent 
role and, of course, threatening force is the most effective 
way.
    I yield back. Thank you.
    Mr. Sires. Thank you, Congressman.
    Congressman Dean Phillips.
    Mr. Phillips. Thank you, Mr. Chairman.
    We spend a lot of time talking about what we should do, 
perhaps not enough time listening to what people want or need. 
I would welcome both of your perspectives, to the extent that 
you can share them, about what both the National Assembly, 
members of the Assembly, specifically independent of aid, 
because when you are hungry and in need it does not matter 
where it comes from, independent of that what would the 
National Assembly if they were here, as many as possible in 
front of us, what would they want from us right now? And what 
would the people of Venezuela, those that remain in country, 
what would they be asking us for right now if we could listen 
to them?
    Mr. Rendon. I think the National Assembly has a clear 
priority right now which is the same as President Guaido, 
stopping usurpation, Maduro's usurpation of power is priority 
No. 1.
    Second, letting Guaido set up----
    Mr. Phillips. May I interrupt you? And how?
    Mr. Rendon. Yes. I think going back to the points we have 
discussed, humanitarian aid is one, but also supporting the 
amnesty law that the National Assembly passed. I am sure they 
will be asking the U.S. to support that amnesty law in ways 
that can be legal; right? I am not supporting a violation 
against international law and human rights. But there is room 
to support this law that is kind of the only bridge that many 
military members have to get out of their situation; right?
    So, that would be another.
    I think the day after scenario is a crucial issue that the 
National Assembly has been trying to put effort and energy on 
that. I think that would be in our request. They would be 
asking the U.S. and the international community to keep in mind 
that the day after they are going to be, the role of the U.S. 
and the international community is going to be crucial from 
economic, financial, security, social, institutional point of 
view. Everything needs to be done in Venezuela. It is going to 
be a blank sheet. It is a completely destroyed country.
    And the only institution able, legitimate to pursue that 
route, is the National Assembly. But they cannot do it alone. 
They need the support of the U.S. and other countries. So that 
would be I am sure another, another request that they would be 
asking if they were here.
    And among many other priorities, right, and going back to 
the bank accounts and the assets, and they need to operate as a 
government. They cannot do it right now because Maduro is 
limiting them financially and economically. So they will be 
probably asking the U.S., hey, we need, we need access to bank 
accounts and to assets so we can operate as a government.
    Mr. Phillips. Thank you.
    Ms. Escobari?
    Ms. Escobari. I mean, I think to just reiterate, the 
situation is unbearable on the ground for most Venezuelans. And 
I think we have shared a lot of numbers. But these numbers do 
not reveal the sense of powerlessness of not having a voice to 
democratically choose another path.
    And I think there is an incredible momentum around the 
world. Venezuelans want to know that we have their back and 
that we will not forget them, and that we will push as hard as 
we can as they see an opening right now.
    Mr. Phillips. So it is fair to say that the people of 
Venezuela want us to play a role in both promoting a transition 
and in, of course very importantly, rebuilding the Nation. And 
my question was more to the sentiment right now of the----
    Ms. Escobari. Absolutely.
    Mr. Phillips [continuing]. Venezuelan people vis-a-vis the 
United States of America and what role they want us to play.
    Ms. Escobari. Absolutely. And this is why I think they 
continue to go to the streets even though this country has been 
battered in this way.
    Mr. Phillips. OK. Thank you very much. I yield back.
    Mr. Sires. Thank you. I thank the witnesses and all members 
for being here today.
    With that, the committee is adjourned. Thank you.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
             
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                                 [all]
</pre></body></html>
